/
J

COCKLE

23 J1 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegaIbriefs.com

Legal Brieff S
Est. 1923

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.
JEAN MARIE BARTON, BYRON LEE BARTON,
INDIVIDUALLY AND ON BEHALF OF
ALL OTHERS SIMILARLY SITUATED,
Petitioners,
vs.
JP MORGAN CHASE BANK NA, QUALITY LOAN
SERVICE CORP. OF WASHINGTON
AND TRIANGLE OF WASHINGTON,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3487 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of January, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
jr
RENEE J. GOSS
My Comiri. Exp. September 5.2023
Notary Public

v

Affiant

40201

